<html>
<title> - BEYOND MICROFINANCE: EMPOWERING WOMEN IN THE DEVELOPING WORLD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     BEYOND MICROFINANCE: EMPOWERING WOMEN IN THE DEVELOPING WORLD

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2017

                               __________

                           Serial No. 115-53

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
26-222PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a>                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Mary Ellen Iskenderian, president and chief executive 
  officer, Women's World Banking.................................     4
Tavneet Suri, Ph.D., associate professor of applied economics, 
  Sloan School of Management, Massachusetts Institute of 
  Technology.....................................................     9
The Honorable Melanne Verveer, executive director, Georgetown 
  Institute for Women, Peace and Security, Georgetown University.    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Mary Ellen Iskenderian: Prepared statement...................     7
Tavneet Suri, Ph.D.: Prepared statement..........................    11
The Honorable Melanne Verveer: Prepared statement................    24

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Material submitted for the record.......    63
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71

 
     BEYOND MICROFINANCE: EMPOWERING WOMEN IN THE DEVELOPING WORLD

                              ----------                              


                        WEDNESDAY, JULY 12, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:11 a.m., in 
room 2172, Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. If I could 
ask the members here to take their seats.
    This hearing is the fourth in our series of hearings to 
examine the challenges and opportunities facing women 
worldwide.
    Today we consider some of the barriers to economic 
empowerment that women face in developing countries and what 
that means for them, what it means for their families, and what 
it means for their communities.
    Now, all countries stand to benefit from women's increased 
economic participation. But the potential gains are 
particularly great across the developing world, due to the 
extent of the constraints that so many women face on their 
ability to own property, their ability to access financial 
services, or work outside the home. Consider that women in more 
than half the world's countries face limits on their ability to 
own or manage property, while women-led small to medium-size 
firms in developing countries face an estimated $285 billion 
credit gap.
    As renowned Peruvian economist Hernando de Soto explained 
when he testified before this committee, one of the primary 
sources of stagnant growth and unrest in developing economies 
is a lack of property rights, and the resulting exclusion of 
workers, including women, from the formal economy.
    These constraints directly harm women by preventing them 
from working, from saving, and from controlling their own 
future. But they also harm economic growth and they harm 
stability. In fact, a multitude of studies project huge gains 
of global GDP from increases in women's economic participation.
    Perhaps that is why, after de Soto helped reform the 
customary laws in his native Peru to make it easier for 
Peruvian women to work and to own property, women's formal 
labor force participation increased by 15 percent in that 
country. As a result, Peru became one of the fastest-growing 
economies in Latin America.
    We have reason to be optimistic that this type of success 
can be replicated. More developing nations are beginning to 
understand the importance of women's economic inclusion and are 
taking steps to reform their laws and to address inequities. 
The U.S. has a critical leadership role to play in continuing 
to promote such reforms. Our economic, humanitarian, 
conservation, and many other interests around the world are 
better served when women are empowered and when economies are 
growing.
    Fortunately, new technologies are making women's economic 
participation more possible than ever. In decades past, 
microfinance loans were championed to combat extreme poverty. 
But microfinance is not a cure-all for those living in poverty, 
particularly those women who face so many additional challenges 
to their economic empowerment.
    In recent years, however, an exciting array of financial 
technologies, like mobile money, have sprung up across the 
developing world. This presents tremendous opportunity for 
impoverished communities and women in particular.
    And so I look forward to hearing from our distinguished 
panel today about how the U.S. Government can batter help 
ensure women's inclusion in the rise of ``Microfinance 2.0.''
    And I now turn to our ranking member, Mr. Engel, for his 
remarks.
    Mr. Engel. Mr. Chairman, thank you for calling this 
hearing.
    To our witnesses, welcome to the Foreign Affairs Committee.
    Ambassador Verveer, I am especially grateful that you were 
able to join us. I know you had to rearrange some travel to be 
here. Your work as our country's first-ever Ambassador-at-Large 
for global women's issues made a lasting difference all over 
the world. And I hope that the administration sees the value of 
this position and appoints a new Ambassador soon, along with so 
many other positions at State awaiting nominees.
    And I want to thank Dr. Suri and Ms. Iskenderian. I hope I 
didn't butcher that. Thank you so much. We look forward to all 
of you testifying.
    We use the word ``empowerment'' a great deal when it comes 
to women's and girls' issues. And honestly, I think it is a bit 
of a misnomer. Women and girls are powerful and we know what 
happens when that power and potential are unleashed--
communities thrive, local and global communities grow, 
societies prosper and become more inclusive and equitable. If 
women were full participants in the global economy, we would 
see an additional $12 trillion to $28 trillion in growth in 
global GDP by the year 2025.
    Certain innovations, such as microfinance and mobile 
banking, have driven progress in women's economic 
participation, but they aren't close to a silver bullet. A 
woman without a mobile phone cannot take advantage of these 
tools. A woman without a birth certificate might not even be 
able to open a bank account. And in too many places around the 
world much bigger roadblocks stand in the way of women 
exercising their full potential. Roadblocks caused by poverty 
or lack of opportunity or by legal barriers or cultural and 
societal norms that treat women as second-class citizens.
    So when it comes to promoting economic access and 
participation for women, I think we should focus on getting 
these obstacles out of the way and make it easier for women and 
girls around the world to put their power to work.
    Now, in my view, making economies more inclusive for women 
is simply the right thing to do. It is just wrong that women 
anywhere are denied access to the same economic opportunities 
as men. And that is true in the United States as well. We might 
not want to deal with it, we might not want to confront it, but 
it is true.
    But this is the Foreign Affairs Committee, so we also need 
to ask: Why is women's economic opportunity a foreign policy 
priority? Well, it is easy: All those benefits of women's full 
economic participation I mentioned earlier--stronger, more 
stable societies--are also in our national interest. We want to 
see economies thrive, governments become more responsive, 
countries become stronger partners on the global stage.
    Full participation of women is directly tied to these 
outcomes. So from a strategic standpoint, this is good, smart 
policy that strengthens American security.
    The aim of our policy then should be to identify and meet 
the challenges that hold women back from full economic 
participation. When we start to look at those challenges, we 
find that women's economic participation is closely tied to a 
range of other issues that disadvantage women and girls in the 
developing world.
    For example, a young girl who is denied an education won't 
become financially literate or learn the skills needed to 
compete in the marketplace. Girls forced into child marriage 
won't have a chance to contribute to their local economies. 
Women who are victims of gender-based violence and domestic 
abuse are less likely to get ahead economically.
    Perhaps most importantly, access to quality healthcare, 
including family planning, is critical to women's economic 
success. The evidence is indisputable: Improving women's access 
to contraception improves their economic well-being. Women who 
are able to plan and even delay childbirth are more likely to 
get an education, raise their standards of living, and climb 
out of poverty.
    That is one reason American policy has focused on expanding 
access to family planning around the world. These efforts have 
seen good results. In the 27 countries with the biggest USAID-
supported programs, the rate of modern contraception use has 
risen from under 10 percent a half century ago to 37 percent 
today, a good jump, but it shows we still have a long way to 
go.
    Now, the Trump administration has said that it supports 
efforts to empower women and girls around the world, but its 
budget proposal tells a different story. The Trump budget 
completely zeros out funding for international family planning 
and reproductive health and eliminates American support for the 
United Nations Population Fund, the largest purchaser and 
distributor of contraception globally.
    On top of that, the administration has reinstated and 
expanded the global gag rule, which we know has devastating 
effects on women's health around the world. This is a disgrace 
which will set women back across the globe.
    Addressing women's economic participation requires a broad-
based, integrated, detailed-oriented, and comprehensive 
approach that deals with all the issues I mentioned, plus a 
host of others. The wrong approach is to cut our diplomacy and 
development by nearly a third.
    Fortunately, Congress has the last word on how much we 
spend on foreign policy priorities, and I will continue to 
fight for a robust investment in these areas. So I look forward 
to hearing from our three excellent panelists on these issues.
    And I thank you again, Mr. Chairman, for calling attention 
to this issue.
    Chairman Royce. Thank you very much, Mr. Engel.
    So this morning we are pleased to be joined by a 
distinguished panel, which includes Ms. Mary Ellen Iskenderian. 
She is president and CEO of Women's World Banking, which is a 
nonprofit devoted to helping low-income women in developing 
countries access key financial tools and resources.
    And we have Dr. Tavneet Suri, associate professor at the 
MIT Sloan School of Management. She focuses on the impact of 
digital finance services in developing economies.
    And we have Ambassador Melanne Verveer, who served as the 
former Ambassador-at-Large for Global Women's Issues at the 
State Department. She currently is the executive director of 
the Georgetown Institute for Women, Peace and Security.
    Without objection, the witnesses' full prepared statements 
will be made part of the record. Members are going to have 5 
calendar days to submit any statements or questions or any 
extraneous material for the record. And if we could ask 
everyone to summarize your remarks that would be best, and then 
we will go to the questions.
    So, Ms. Iskenderian, if you would like to start.

 STATEMENT OF MS. MARY ELLEN ISKENDERIAN, PRESIDENT AND CHIEF 
            EXECUTIVE OFFICER, WOMEN'S WORLD BANKING

    Ms. Iskenderian. Thank you, Mr. Chairman.
    Members of the House Foreign Affairs Committee, thank you 
for inviting me to speak with you today. My name is Mary Ellen 
Iskenderian, and I am president and CEO of Women's World 
Banking.
    For nearly 40 years we have listened to low-income women in 
developing countries describe their need for financial services 
and then worked with local banks, insurance companies, and, 
increasingly, cell phone companies to tailor convenient and 
affordable savings, insurance, and credit products to meet 
those needs. Women's World Banking currently works with 49 
partners in 32 countries to reach 44 million clients.
    But Women's World Banking can't do this alone. The Global 
Findex tells us that 1.1 billion women, more than half of the 
world's unbanked population, do not have an account at a bank, 
while hundreds of millions more do not have access to the full 
set of financial products. In addition, women own roughly one-
third of the 200 million businesses in emerging economies that 
have no or insufficient access to credit.
    Providing these women with basic financial services, that 
fundamental first step toward economic empowerment, can unlock 
unprecedented economic growth and job creation and can have a 
direct impact on development outcomes such as health, 
education, food security, and water and sanitation.
    Women spend, save, and invest money in profoundly different 
ways than men. One such difference: When women have discretion 
over their financial choices they prioritize spending on their 
families. On average, women spend 90 cents out of every dollar 
earned on education, healthcare, and housing, in comparison to 
men's 60 cents.
    Improving a woman's financial access brings with it a 
multiplier effect that will be critical to realizing the 
potential of financial inclusion for reducing poverty and 
driving economic growth.
    I am pleased to note that you have entitled this hearing 
``Beyond Microfinance.'' The traditional microfinance 
institutions established an important principle: Low-income 
people and women in particular can borrow responsibly. But over 
the years we have learned that, like all of us, low-income 
people have complicated financial lives that require more than 
just a one-size-fits-all microloan.
    Fortunately, a broad range of providers, including 
mainstream commercial banks and insurance companies, as well as 
payments providers, mobile network operators, and fintech 
companies, has emerged to meet these needs.
    Yet low-income women face a number of barriers that hinder 
their access to these services. I will touch briefly on just 
three of them along with some potential solutions.
    First, millions of women lack the documentation and other 
forms of identification to open even a simple savings account. 
India has recently implemented an innovative biometric ID 
system that has dramatically expanded access to financial 
services. Elsewhere, tiered ``know your customer'' requirements 
allow women to open no-frills savings accounts with minimal 
documentation.
    The second barrier women face is a lack of collateral. 
Women generally have fewer assets to pledge to a bank and in 
many countries are legally barred from owning or inheriting 
land. In response, some countries have established movable 
collateral registries that better reflect the types of assets 
women can provide to satisfy bank requirements.
    Finally, more than 1.7 billion women in low- and middle-
income countries do not even own a cell phone. This lack of 
access to technology, combined with lower financial and digital 
literacy, prevents them from fully utilizing digital financial 
services. Once women gain access to their own phone and some 
basic training, however, their usage levels parallel men's.
    Despite these barriers, I am optimistic about the 
opportunities presented by women's financial inclusion. The 
United States can play an important role in accelerating those 
opportunities by joining other developed countries that are 
investing in women's financial inclusion, often led by their 
country's gender Ambassadors.
    The United States can use its influence at the G-20 and 
other fora to push for implementation of more national 
financial inclusion strategies that have explicit gender 
targets. USAID, OPIC, and even Ex-Im could catalyze more 
private sector investment by including requirements in their 
programs to serve women. They could also engage in public-
private partnerships that serve to derisk private sector 
investment.
    Distinguished committee members, thank you for calling 
attention to the role that women's financial inclusion plays in 
building stronger families, communities, and economies.
    [The prepared statement of Ms. Iskenderian follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Dr. Suri.

   STATEMENT OF TAVNEET SURI, PH.D., ASSOCIATE PROFESSOR OF 
 APPLIED ECONOMICS, SLOAN SCHOOL OF MANAGEMENT, MASSACHUSETTS 
                    INSTITUTE OF TECHNOLOGY

    Ms. Suri. Thank you, Mr. Chairman Royce, Ranking Member 
Engel, and members of the committee for hosting this hearing 
and giving me the opportunity to provide testimony on 
empowering women in the developing world. I would like to offer 
three main messages today.
    First, although there has been truly remarkable progress in 
alleviating global poverty across the world, the progress of 
women has not kept up with that of men. We have a long way to 
go toward gender equality in the developing world. For example, 
only 39 percent of the total workforce is female, only 38 
percent of businesses are female-owned even in part.
    Second, all that said, it turns out that a number of 
private sector digital financial technologies are helping even 
poor women in remote areas join the economy and manage their 
money more effectively with profound effects on their economic 
status and empowerment.
    Third, to date, though the private sector has created and 
provided these tools at scale, international aid played a 
critical role. In this case millions of digital transactions 
each day in poor countries can be traced back to be a small 
decision by the U.K.'s international development agency to fund 
a pilot of a new idea. Good, data-driven thinking which brings 
together government and private sector innovations can bring 
big payoffs.
    This hearing is aptly titled ``Beyond Microfinance.'' For 
many years microfinance was thought to be key to lifting poor 
women out of poverty. We now have very strong evidence from 
seven different countries showing that it simply does not. 
There is now a consensus amongst economists that this method of 
putting poor people into debt is not an effective long-term 
poverty solution.
    But there are new findings suggesting that another area of 
finance does empower women: Mobile money. In the U.S., services 
like Venmo or Apple Pay are just taking off. So it may be 
surprising to hear that Kenya's mobile money system, M-PESA, 
has been around for 10 years. It lets people send money to one 
another with just a text message, so it works even on the 
simplest mobile phones.
    And this technology has taken the developing world by 
storm. There are twice as many mobile money payments every day 
as there are PayPal ones. There are over 400 million accounts 
in the developing world, more than half of these in sub-Saharan 
Africa alone.
    With my colleague Billy Jack at Georgetown, over the past 8 
years I have been studying what happened to communities in 
Kenya as M-PESA spread across the country. The first thing we 
saw was how families deal with financial emergencies. The poor 
are never more than one emergency away from financial disaster. 
When a child gets sick, you will do whatever you have to do 
help them get better. The same holds for Kenyans, but in many 
families this meant reducing the amount of food, other basic 
necessities, or even pulling their kids out of school to be 
able to pay for medicine.
    When M-PESA arrived, families could now phone a friend for 
help. They could get money from a cousin across the country or 
a friend in the city. Then in turn, when that friend had an 
emergency, they would repay the favor.
    A few years later we looked at the broader impacts of 
mobile money. When M-PESA came to an area, it reduced poverty, 
it lifted an estimated 194,000 households, 2 percent of Kenyan 
households, out of extreme poverty.
    When we dug deeper, we found something we are not used to 
seeing: The anti-poverty effects were much stronger for women. 
In fact, an estimated 186,000 women in Kenya were able to 
switch from subsistence farming into business and sales 
occupations.
    Just giving women more privacy, flexibility, control, and 
the ability to manage the kinds of financial risks they face 
seems to have been a massive economic boon to them. And all 
that from a simple technology. Remember, it doesn't give people 
cows or loans or any entrepreneurial savvy that they didn't 
have before.
    Our results on women's empowerment are now supported by 
``fresh off the presses'' work showing that cash grants have 
effects on male-run businesses and not on female-run 
businesses. But this is in part because even when women are 
given cash, often their husbands control where it goes. And in 
India, making government welfare payments electronic and giving 
women control of those payments by depositing the cash in their 
bank accounts improved their economic outcomes.
    One key message from the M-PESA story is how it started: An 
idea of two employees at the private cell phone company 
Vodafone in the U.K., a pilot paid for by the U.K.'s equivalent 
of USAID, and a resulting, scalable, highly profitable business 
model.
    There is essentially no private sector R&D in developing 
countries and aid money here acted as crucial R&D capital for 
the firm. Supporting these sorts of digital innovations and 
technologies will be key to closing the gender gap in economic 
opportunities in the developing world.
    Thank you again for having me, and I will look forward to 
any questions you might have.
    [The prepared statement of Ms. Suri follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you.
    Ambassador Verveer.

STATEMENT OF THE HONORABLE MELANNE VERVEER, EXECUTIVE DIRECTOR, 
GEORGETOWN INSTITUTE FOR WOMEN, PEACE AND SECURITY, GEORGETOWN 
                           UNIVERSITY

    Ambassador Verveer. Chairman Royce and Congressman Engel 
and members of the committee, thank you for the opportunity to 
speak to you today on an issue of critical importance: 
Increasing women's economic participation and empowerment in 
developing nations.
    Mr. Chairman, let me begin by thanking you for your 
leadership in focusing on global women's issues. They are in 
the vital interest of the United States. Countries with 
declining living standards and inequality are more unstable and 
pose greater challenges to our own interests and our own 
security.
    Empowering women and girls is fundamentally a moral issue, 
a human rights issue. It is also smart and it is strategic. It 
advances our foreign policy as it tackles some of the most 
pressing issues that confront the globe and America's 
leadership.
    This hearing has to do with one of the great challenges 
worldwide: How do we grow economies, create jobs, and ensure 
inclusive prosperity? Today there is a growing body of 
empirical evidence demonstrating the positive impact of 
investing in women and girls. From the World Bank, to the World 
Economic Forum, from countless think tanks and private sector 
analysts, we know that women represent one of the most powerful 
economic opportunities the world has ever seen. The McKinsey 
Global Parity Report found that closing the global gender gap 
could drive more than $12 trillion in growth by 2025 if--and 
this is a big if--much more is done to tackle the obstacles 
that continue to hold women back.
    Micorenterprise development has played an important role in 
lifting up women at the bottom of the pyramid. However, for 
them to grow out of their subsistence businesses is not easy. 
As you have heard, credit is not enough. An intensive package 
of high-potential interventions is required.
    Studies show that women-run SMEs are accelerators of 
economic growth. SMEs occupy that critical space in economies 
where jobs are created and economies grow.
    Yet, if women are to unleash their potential we must 
confront and reduce the barriers they confront. They face 
greater roadblocks than their male counterparts in starting and 
expanding businesses. Discriminatory laws and customs impede 
women's efforts. Violence against women is a global scourge. In 
some places women have no rights to inheritance nor property 
and very little in the way of legal protection.
    Women often lack training, mentors, and networks. Access to 
technology, markets, and access to finance, as you have heard, 
is particularly challenging. For female entrepreneurs to 
unleash their potential, addressing these obstacles will be 
essential.
    Women are also vital to the agriculture sector, and in many 
developing countries they are the backbone of their economies. 
Yet subsistence-level women farmers do not have equal access to 
resources, which limits their productivity. A seminal FAO 
report showed that when women farmers can operate on a level 
playing field, including having land ownership, they can 
increase their individual yields significantly.
    Technology has the potential to revolutionize women's lives 
in the developing world by providing critical access to 
information, mitigating health and safety risk, and creating 
opportunity for financial security and independence. Yet mobile 
technology, as essential a tool as it is, is still out of reach 
for many poor women. Its greatest impact will be in mobile 
banking, which enables women to make the financial transactions 
that they need and to keep their money safe. But the genuine 
good news here is that strides are being made in digital 
financial services that are indeed transforming women's lives.
    The challenge we are addressing today is multifaceted, as 
must be any solution. No one investment constitutes a silver 
bullet. Many development investments are interrelated. Programs 
like women's health, education, freedom from violence, and 
legal rights are critically important to economic empowerment, 
and a Federal budget that drastically cuts these programs will 
only shortchange women, but not only the women around the 
world, it will also shortchange the interests of the United 
States.
    I hope that the committee will also urge the administration 
to fill the position of Ambassador for Global Issues for the 
reasons that I have laid out in my testimony.
    Today some of the largest and most farsighted companies 
understand that engaging in partnerships to advance women 
brings benefits both to society and to companies themselves. 
Public-private partnerships recognize that no one sector has 
the monopoly on competencies that are required in this field, 
nor the resources, but together much can be achieved. And I lay 
out ways that companies today are engaged in these partnerships 
through value chain sourcing, digitizing financial services, 
and so much more.
    The United States should continue to catalyze, support, and 
participate in impactful and innovative partnerships among many 
stakeholders.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ambassador Verveer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thank you. I thank the panelists. And when 
we look at your testimony there are a lot of things that jump 
out that are really quite surprising.
    Dr. Suri, you mentioned your research on mobile phones in 
Kenya, I think. Again, what you just said was 186,000 women 
made the decision as a result of this new form of employment to 
move from subsistence farming to move into business or to move 
into sales. And yet maybe you didn't see the same changes with 
men, but you saw this enormous shift. You know, I think this is 
key. But could you explain maybe a little more of why you think 
this occurred?
    Ms. Suri. Thank you, Chairman Royce.
    So that is exactly right, we did not see men shift 
occupational choice or switch their kind of decision of where 
their income is coming from, but women did. And that number is 
correct, 186,000. So we can't pinpoint exactly why, but we can 
tell you kind of the two sort of leading hypothesizes, which 
are supported by the other work that was in my testimony.
    So one of them is that what M-PESA mobile money did was 
provide extra resilience. So you might have heard the term 
``high risk, high return.'' Women weren't taking advantage of 
high risk, high return because they were worried about the 
downside risk. They were worried that if something goes wrong, 
I still need to feed my kids, educate my kids.
    And so when mobile money came along and gave them this 
protection from the social network, they were able to take 
advantage of these high risks, high return opportunities like a 
business like sales. So I think that is part of the story.
    I think the other part of the story is it gives them 
control. A lot of these women actually do have cell phones and 
they are able to save on their phones through mobile money, and 
it gives them a sense of access and control to what is on their 
phone.
    And so I think both of those components probably explain 
these findings for women.
    Chairman Royce. So they exert ownership or they exert 
control----
    Ms. Suri. Absolutely.
    Chairman Royce [continuing]. Over what is one's property.
    Ms. Suri. Yes, absolutely.
    Chairman Royce. And that is something that men maybe 
already have, but now that women are empowered in that way they 
basically have a secure property right here, and that lets them 
assume greater risk, as you said, which is the driver of 
innovation, driver of economic growth.
    Ms. Suri. Yes. I like what you said when you opened. You 
said something about women controlling their future. I think 
this allows women to control a bit more of their future.
    Chairman Royce. Another question here, and I will ask the 
panel. Developing countries are increasingly coming to 
recognize the importance of women's economic inclusion. So we 
see countries from Jordan to Kenya, as you pointed out, to 
Nicaragua, they have reformed their laws in recent years to 
improve women's property rights. But this change takes time.
    And we have a Millennium Challenge Corporation here in our 
diplomacy that we use for leverage, and we have had some 
success in encouraging reforms in exchange for U.S. investment. 
And I would just ask the members of the panel here, how can we 
encourage more reforms and what should we be focusing on in 
that effort?
    Ambassador.
    Ambassador Verveer. Well, I think that is an excellent 
question, Mr. Chairman. And it is true that without the kinds 
of reforms and legal protection women are not able to progress 
as they might in the economic sphere.
    I think what the MCC has done over a longer-term trajectory 
as it is organized to do, it certainly has a very strong gender 
component to its work and also is holding governments 
accountable using the leverage of America's investment, as you 
say.
    I think the private sector too. Mobile companies, for 
example, who go in to ask for expansions of regulatory 
opportunities could also be raising issues about women's legal 
protections or ways in which women can enhance their standing.
    So I think we need a combination of people who talk to 
governments, as each and every one of you does when you are on 
a codel, or when they are coming here, to raise these issues.
    You know, we talk about them as women's issues, but they 
are far more than women's issues. They peculiarly affect women, 
there is no doubt about it, but they have a great deal to say 
about all of society and certainly how economies function. So I 
think we should not diminish the aggregation of all of the ways 
to influence governments in making the right decisions.
    Chairman Royce. And I wanted to ask Ms. Iskenderian this 
question too.
    Ms. Iskenderian. Thank you, Mr. Chairman.
    Just to build on Ambassador Verveer's comments, it is a bit 
of a hackneyed phrase, but what gets measured gets done. And I 
think one thing that MCC in particular, but certainly any other 
agencies that are interacting with nations abroad and 
developing countries, can insist that tracking the data, 
tracking the number of women that are being served is done.
    Only 34 percent of cell phone companies today that are 
offering mobile money services even know the gender of their 
clients. So we can't even really assess the nature, the full 
nature of the problem until we actually know who is being 
served, who is not being served, and how they may be different.
    We saw, both of the panelists referred to this, huge 
improvements in financial inclusion between 2011 and 2014 in 
the runup to the Global Findex report. The biggest changes were 
in those countries that had specific national financial 
inclusion strategies that had specific gender targets. That 
would be such an easy thing for us to include in anything that 
we require of a government that we are providing funding to.
    Chairman Royce. Very good.
    My time has expired.
    Mr. Engel.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Ambassador Verveer, let me ask you this. Thank you again 
for coming here. I have two questions.
    While empowering women economically is certainly in line 
with America's values, it is also in America's U.S. national 
security and foreign policy interest because it promotes peace 
and stability in fragile states. You have done a lot of work in 
Georgetown and during your time at the State Department as the 
first U.S. Ambassador on global women's issues on the link 
between women's economic empowerment and national security.
    So I would ask you, in general, how does empowering women 
promote U.S. foreign policy, national security, and economic 
interests? And what role did empowering women economically have 
in Rwanda in terms of economic growth, but also post-conflict 
peace and stability?
    Ambassador Verveer. Congressman Engel, I think the 
connectivity between women's economic agency and participation 
and peace and security is one that is increasingly linked and 
one that we are recognizing as critically important. And I know 
that this panel had a previous hearing in this area of women, 
peace, and security, and what their agency represents.
    We know that in those societies where the condition of 
women is one where they are oppressed and denied their rights, 
those conditions often are the first signs of increased 
instability and potential conflict. I often feel as though 
women are the canaries in the mines. Look at what is happening 
to the women and you will have a sense of what is to come down 
the pike, if we have the vision and the ability to look at 
those conditions and take them seriously.
    I think one of the most important elements as we take 
hopefulness out of situations where countries are coming out of 
conflict is to appreciate that you could have the best peace 
agreement, but if the key issues that affect the people on the 
ground--and one of the critical ones is their economic future--
are not weighed into those agreements and are not executed in a 
recovery process, you are not going to have that long-term 
sustainable peace that an agreement hopefully would guarantee.
    And in a place like Rwanda, for example, there was a 
recognition, and while so many lives were lost, that women had 
to play a critical role. Today they comprise some 60 percent of 
their Parliament, the highest women's participation in 
legislatures in the world. They are active in ministries. They 
are active in every facet of the decisionmaking processes in 
Rwanda. And I think to some extent, whatever you think of 
President Kagame, he has recognized that the empowerment of 
women has played a major difference in moving his country 
forward.
    In my testimony I note one of the projects that I have been 
involved in included a private sector company, Kate Spade & 
Company, which made a business investment in Rwanda 
specifically for business results, but also to empower women. 
And what we have seen in the case studies that have been done 
on that investment is what a difference it is making, not only 
in terms of their business investment, but particularly in 
terms of women's economic empowerment and social progress for 
those women and their community.
    So, again, the link between economic participation, 
economic viability, opportunity, and sustainable peace and the 
amelioration and the avoidance of conflict go absolutely hand 
in hand.
    Mr. Engel. Thank you.
    Let me ask Ms. Iskenderian this question. What steps do you 
believe the administration should take to promote the economic 
empowerment of women? How and why should they target women from 
poor rural communities just as equally as those living in urban 
centers that already have access to the formal economy or 
banking? And finally, what good does incentivizing legal and 
policy reform do for women from all socioeconomic backgrounds?
    Ms. Iskenderian. That is a tall order.
    Mr. Engel. And you have 18 seconds.
    Ms. Iskenderian. Thank you.
    I think just to make one clarifying point, that urban-rural 
divide that you mentioned. Yes, one of the very exciting things 
about mobile money is that we are able to reach rural 
populations that have been so excluded.
    But just because a woman is in an urban area doesn't 
necessarily mean that she has access to financial services. In 
far too many places we still see the formal finance sector has, 
for example, very, very high minimum balance requirements. 
There is a very strong sentiment on the part of low-income men 
and women that the financial sector doesn't really want them. 
But I think for women there is also this emotional distance, so 
to speak, that they really do not feel respected, their savings 
are not necessarily wanted.
    But those banks that do make that commitment, that do make 
that leap into this new market, find that women are really 
excellent clients. They tend to be the savers, their savings 
accounts are the stickier savers. They are more willing to buy 
cross sold products than men are. They buy more insurance than 
men do. Lots of very good benefits.
    And so I think to whatever extent this administration can 
continue to foster that support specifically from the private 
sector. As I mentioned in my remarks, I think there is a great 
deal we can do in derisking. We have seen a number of the 
development finance institutions from other developed countries 
are providing that kind of support, first-loss guarantees, that 
first step into a market that supports a private sector player. 
But then as they get used to that market, and they see that 
this is a good form of investment, that support can be 
lessened.
    Mr. Engel. Thank you.
    Mr. Chairman, before I go back, I would just ask for 
unanimous consent to enter CARE's written testimony into the 
record.
    Chairman Royce. Without objection.
    [The information referred to follows:]
    ******** COMMITTEE INSERT ********
    Mr. Engel. Thank you, Mr. Chairman.
    Chairman Royce. We go now to Ileana Ros-Lehtinen of 
Florida.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman, and 
thank you to the ranking member, for convening this important 
hearing. And thanks to our witnesses for excellent testimony.
    With so much going on around the world, the Syria conflict, 
the Iranian nuclear deal, North Korea's ballistic missiles, and 
everything in between, lamentably we often overlook the plight 
of women in the developing world and our role and our 
responsibility for helping these women. We know that women in 
many developing countries oftentimes face insurmountable legal, 
cultural, and religious barriers to becoming the full and equal 
members of society that must be their natural right.
    Not only is this a travesty for the rights of women, but in 
many of these countries when women have the same rights and 
access as men, the transition from developing to developed 
countries becomes a reality.
    Preventing half of your population from access to the job 
market and thus the financial tools to help promote economic 
growth is just unconscionable. It is imperative that we discuss 
ways to correct this and that women in developing countries 
have access to the tools and the services so they can have an 
important role in their countries.
    We must also remember that it isn't just the economy to 
which they are being denied access, it starts from the time 
that they are children. Oftentimes women are not even 
registered at birth, putting their future and their well-being 
in danger.
    That is why I have always been proud to support my good 
friend Steve Chabot in his efforts to pass the Girls Count 
Act--and thank you, Steve, for that--to ensure that these girls 
get birth certificates and are registered.
    My goodness, as a former Florida certified teacher, I know 
how important education is to all children, but for women in 
developing countries before we talk about getting them access 
to financial tools, we really need to ensure that they have 
access to a real education. That is why I have authored bills 
to provide Pakistani girls and women access to scholarships so 
they can get the education they require and why I am 
cosponsoring Steve's Protecting Girls' Access to Education Act.
    For women in developing countries we need to start changing 
the fundamental ways in which they are viewed from the moment 
they are born if we are ever going to have a chance at their 
access to the financial services later on, and that is a tall 
task because of the legal and cultural barriers they often 
face. Women in about 18 of the world's economies, 
unfortunately, including many in the subcommittee that Mr. 
Deutch and I head, the Middle East and North Africa 
Subcommittee, require permission from their husbands or legal 
male guardians to work outside of the home, if they are even 
allowed to work at all.
    So I would ask the panel, how do you begin to make a change 
when so much discrimination is ingrained in the cultural norms 
and the societal norms and the values, when women from the time 
of birth are not viewed as equal to men? And how can we in the 
United States leverage our assistance and our role in the 
global stage effectively enough to promote the change that is 
needed?
    Thank you.
    Ambassador.
    Ambassador Verveer. Well, Congresswoman, thank you for 
those remarks and for your leadership.
    It is not all a dismal story. There is certainly a long 
road to climb and a journey that women are on all over the 
world. But there has indeed been progress, and a lot of 
progress has come out of the leadership of our diplomatic and 
development efforts, as well as certainly those of others.
    And I think one of the key issues you mentioned is 
education. It is absolutely fundamental for a girl to be 
educated. Malala took a bullet just to make the case that girls 
have a right to an education.
    It is that megachange component, because we know all of the 
things that come out of an educated girl in terms of the 
benefits that take place over her lifetime, the children she 
raises, the kind of job she has.
    Ms. Ros-Lehtinen. Thank you, Ambassador.
    Any of the other two?
    Thank you, Dr. Suri.
    Ms. Suri. Thank you, Congresswoman.
    I guess I would say I think there are two parts of this. 
Education, I completely agree. I think that is also tied to 
financial inclusion. We have some work in Kenya showing that 
when we gave households access to loans for these water tanks 
where you can store water, the girls went back to school.
    So understanding not just attitudes, but what is actually 
preventing the girls from going to school, what are they doing, 
and how do we try to alleviate those constraints can be 
important.
    I also want to mention some work on India which is 
fascinating, where they required some districts to have a 
third-of-women participation in local government. And they 
looked at the decisions then that the women made versus the 
men. And the women of course have different preferences than 
men. They chose different public goods and different 
investments than the men. Hard to weigh up which ones are 
better or worse.
    But what was really fascinating is they also did some 
surveys on the ground of people and they saw that people's 
views of women started to change when women started to 
participate in local government and they saw women making 
decisions about what the community needed or not. So I think 
that is also something----
    Ms. Ros-Lehtinen. Thank you very much. I am sorry, we ran 
out of time. Next time.
    Thank you. Thank you, Chairman Royce, and thank you, Mr. 
Engel, for convening this important hearing. And thank you to 
Lois Frankel. I know that she was one of the engines behind 
this hearing. Thank you, sir.
    Chairman Royce. Thank you very much, Ileana.
    Albio Sires of New Jersey.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing. And I always have been very interested in this topic. 
I grew up in a household where machismo was it. My father would 
not allow my brother and I to hang around the kitchen. And I 
still remember the day when I was helping my mother make the 
bed where he picked me up and he spanked me because I was 
helping my mother. He always said that was the woman's domain.
    But a funny thing happened along the way. At the age of 11, 
my parents and I and my brother, we came to America. My mother 
got a job first. All of a sudden, things changed in the house 
so completely. My father was in the kitchen helping her because 
she came in late. My father was helping out with the wash. And 
I always used to tell my father, I said, ``Whatever happened to 
all those things that you taught me in Cuba that I shouldn't 
do?'' And I think he was kind of embarrassed for the way things 
changed. Then later on he got a job and all those things went 
down the tubes.
    I also remember my first day teaching. I taught in a school 
with a lot of Hispanic students and since I was bilingual I was 
the chaperone of the school dances. And the principal said, 
``You have to come.'' And I used to hang around in a corner 
with about 12 mothers who used to come to the high school 
dances.
    I mean, it is fascinating. And, fortunately, I had two 
great college professors. I went to a Jesuit school in New 
Jersey which was only men, but when I got there it had changed. 
And I had the first woman professor ever and the second woman 
professor. They were fascinating and this topic was always 
brought up.
    But I cannot agree with you more that education and 
economic opportunity changes the whole formula. And I think 
that is what we should strive for when we want to help 
somebody. You know, there are a lot of things that we can do, 
but I think education is certainly our economic opportunity. 
Because I saw that my mother brought the first check and the 
whole thing changed, I mean overnight. And to this day I find 
the whole thing fascinating.
    So I guess what can we do to continue to provide economic 
opportunity for women, because I think that is the only way 
that you are going to be able to change it, and obviously 
education also, especially in the Western Hemisphere. I think 
that machismo is still pretty much alive in the Western 
Hemisphere in all these countries. My district is obviously a 
very predominant Hispanic district, I represent just about 
every country in the Western Hemisphere that speaks Spanish, 
and I hear these stories.
    And I am concerned with some of these cuts for these 
programs for women, you know, how we are going to impact that 
in the Western Hemisphere. Sorry to take so much time. But can 
you talk a little bit about it?
    We will start with you.
    Ms. Iskenderian. Thank you, Congressman. And thank you for 
that story. It is absolutely what we see on the ground. As soon 
as the financial situation shifts a little bit, the dynamic in 
the household changes, a lot of other things can change as 
well.
    I think I just would like to build on some of what we were 
talking about with education, because what we see far too often 
is some of that really fantastic benefit that we all know about 
educating girls gets lost if we also don't prepare them 
financially. So part of that education giving them financial 
literacy skills.
    And what we are seeing in our work on the ground, also 
getting a savings account, ideally in their own names, as early 
as possible. We have been working with an NGO in Africa that is 
graduating 180,000, 200,000 young girls from secondary school 
every year, tremendous progress. But they are seeing those 
girls married within a year, because they don't have savings, 
they don't have life skills. They are not financially prepared 
to go out in the world.
    Mr. Sires. I always figured that one of the issues that 
held my mother back was that my mother was 13 and my father was 
23 when they started going out. I always told my father you are 
going to be put in jail in America if you did that.
    Can you?
    Ms. Suri. Yes, thank you, Congressman.
    I guess I will just add on some of the stuff that was said 
earlier and something that Ms. Iskenderian talked about. If you 
look at the mobile money story, the technology and the 
innovation was seeded by aid money, by a donor. It allowed the 
private sector to kind of derisk what they were doing and 
provide a set of tools that affect women.
    I think thinking through how we provide that R&D capital 
for the private sector and emerging economies is really 
important, because they don't have R&D, they don't do R&D 
traditionally. But if we can derisk private sector investments 
in these countries I think we can get a whole set of new 
technologies and tools to women that I think will really 
benefit them.
    Mr. Sires. I am sorry I ran out of time. Thank you, Mr. 
Chairman.
    Chairman Royce. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
again I want to point out that the leadership of Mr. Engel and 
Mr. Royce have again demonstrated that there are a lot of areas 
that we can work together on and that we are choosing issues 
like this that are just somewhat out of ordinary. And so I want 
to thank the leadership for this hearing today and making this 
issue.
    I would like some more specifics from you. You are the 
experts, and I want to know what countries are the good guys 
and what countries are the bad guys. And I guess, first of all, 
what countries would you say are on the super good guy list and 
what are the countries that are on the super bad guys list?
    Ambassador Verveer. Well, I don't know if I would call them 
the good guys and the bad guys necessarily. But there are 
plenty of rankings today, Congressman, and whether it is the 
UNDP's human development rankings or the World Economic Forum's 
gender gap rankings.
    Take the World Economic Forum. Nobody accuses them of being 
a women's organization. And yet they annually look at the 
gender gap between men and women on four metrics in any given 
country: Health, access to education, economic participation, 
and political participation.
    Mr. Rohrabacher. Okay.
    Ambassador Verveer. And when you look at those rankings, 
the Scandinavian countries and others are at the top. And then 
keep going down and you find a lot of the countries that are in 
the most difficult straits today, conflict ridden, poverty 
stricken, capturing the headlines in not the most favorable 
way. They are the places where gender equality is clearly at 
the bottom.
    Mr. Rohrabacher. Are there any poor countries--we are 
saying poor countries versus rich countries then--are there any 
poor countries that have a really good record on this?
    Ambassador Verveer. That is a very good point, because if 
you look at the WEF's rankings you will find some anomalies in 
there, countries perhaps in Latin America and Central America 
or in Africa, because they are looking at the gap based on what 
they have. And as they are closing the gap within the context 
of that country they are making progress.
    Mr. Rohrabacher. Okay. Give me some specifics.
    Ambassador Verveer. I don't have the rankings in front of 
me, unfortunately.
    Mr. Rohrabacher. There are some good guys at the lower end 
of the scale, a lot of bad guys. One of the reasons that their 
countries are poor is because they have oppressed women. And I 
think that it is very clear that if you oppress women you are 
oppressing one half of your population and thus you are cutting 
yourself off from a lot of economic activity.
    But do you have some names for me?
    Ambassador Verveer. Well, you know, several years ago the 
Arab Development Report was published and it has been since 
updated. Arab intellectuals wrote that report. It had 
considerable impact in the region because one of the clear 
indices of why they were not progressing economically in ways 
that they should was the state of women's conditions.
    Mr. Rohrabacher. Sure.
    Ambassador Verveer. Lack of education.
    Mr. Rohrabacher. I understand. I am trying to get a little 
less philosophy out of you and some more specifics.
    Ambassador Verveer. Well, I am talking about the region.
    Mr. Rohrabacher. Okay. Give me some names of countries. Do 
we have any names of country? Give me a name of a couple bad 
guys we should have on our list and say, ``Hey, why do you 
treat women that way in your country?''
    Ambassador Verveer. Look at the situation in Pakistan, for 
example.
    Mr. Rohrabacher. Okay, Pakistan.
    Ambassador Verveer. Or the situation in Yemen.
    Mr. Rohrabacher. Okay.
    Ambassador Verveer. You know, these. And then look at the 
state of those countries. Certainly at the bottom in terms of 
equal opportunity and----
    Mr. Rohrabacher. Thank you, that is what I was really 
looking for, Pakistan and Yemen. Of course, let's keep that in 
mind when we are dealing with those countries.
    By the way, let me just note women's role in the military 
in various places. The Kurds and the Israelis seem to have 
women playing a major role in the security of their country. 
Are there countries, other countries like that, that we can--
the United States has really increased the role of women in our 
military. Who are the good guys and bad guys in terms of 
utilizing women within their government and their military?
    Ambassador Verveer. You have raised another critically 
important issue, the participation of women in the security 
sector. I think there are some seven or eight ministers of 
defense now in the European countries who are really moving 
this agenda forward. As you mentioned, we are making some 
progress.
    It is still a significant problem in U.N. peacekeepers, for 
example. There are very few women in the ranks of peacekeepers. 
Yet a major part of their mission is the protection of 
civilians, and it is often women who are in the most difficult 
straits in the places where they are keeping the peace.
    In military service and in police service, whether it is in 
Afghanistan or other places of conflict, to raise the 
participation of women.
    Mr. Rohrabacher. Well, let's just note--Mr. Chairman, thank 
you. And we note here that on Capitol Hill it was a female 
police officer that saved the lives of several Members of 
Congress who were under attack.
    Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher.
    Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman.
    I was listening to my colleague, Albio Sires, talk about 
his upbringing. When I think about my own upbringing in an 
immigrant household, both my parents worked, but my mom had 
multiple jobs, making sure me and my two older brothers got 
ready for school, making sure that we had something to eat, 
making sure that we did our homework, and the importance of 
empowering women to be kind of that glue.
    I would like to ask a couple questions. I think, Ms. 
Iskenderian, you talked a little bit about kind of going 
cashless. India is doing a pretty interesting experiment right 
now. And maybe it is not an experiment, it actually seems to be 
going fairly well. And I would be curious about the thoughts of 
going to this cashless economy and digital economy and the 
impact that has both bringing women, but bringing everyone into 
the traditional economy.
    Ms. Iskenderian. Yes, it is truly remarkable, Congressman, 
what India has been able to accomplish, and the government has 
really just driven financial inclusion. They have, as I 
mentioned in my remarks, instituted this biometric system. So 
everybody has a thumb print, and that has been available to men 
and women alike.
    There are some things that we would love to see changed in 
this, because when the government is then looking at financial 
inclusion they are looking at household financial inclusion. 
And so we don't always know, but when we dig into the data that 
typically means that the husband has taken that biometric 
information and opened the bank account rather than the wife.
    But not in all cases. And we are very excited about the 
opportunities. You probably heard recently about the 
demonetization. India took several currency notes out of the 
system. It was particularly difficult for women who still were 
operating in cash and didn't necessarily have access to the 
technology for a variety of reasons, including cultural and 
social reasons. They didn't own the cell phone.
    So we are eager to make sure that women are not left behind 
in this exciting move toward the cashless economy.
    Mr. Bera. Dr. Suri, did you want to add?
    Ms. Suri. Yes, I am happy to add, and thank you for that 
question. I will mention a couple of things on the digitization 
in India which, like Ms. Iskenderian said, has been impressive. 
When they started off I really didn't think they would succeed 
at giving most of their population a digital identity.
    I think there is a bunch of research now showing great 
gains to this. One has been as they digitized people's identity 
they digitized a bunch of the social welfare programs from the 
government. And this has dramatically reduced corruption in the 
government because you can't have fake people anymore in the 
system and I can't sign up Ms. Iskenderian and pay her on the 
side. So you see a reduction in corruption.
    And then, accompanying that, we have seen some luck where 
when women earn the money off the workfare programs, if it is 
tied to a bank account that they have that is theirs, it 
increases their labor force participation and their earnings.
    So I think it can't be just digitization on its own 
because, as Ms. Iskenderian said, that doesn't mean necessarily 
financial inclusion in the way we think about it for women and 
financial use. But when I can tie that digitization to now 
financial tools and other things, then you do see this benefit 
for women.
    Mr. Bera. Ambassador.
    Ambassador Verveer. Thanks, Congressman.
    You know, one of the things that has always affected me 
traveling throughout the developing world is how terrified 
women are that the meager earnings that they may have will not 
be safely kept, because either it will be taken from them 
within their household or through bribes of one kind or another 
that they have to pay for essential needs. And this overriding 
concern is something that I think these changes that we are 
talking about this morning begin to really address in a serious 
way.
    And I think today you see more and more of the governments, 
as Dr. Suri said, taking their welfare payments, many of them 
targeted to the woman, for education and health and essential 
needs of her children, and, increasingly, that is coming in a 
card. It is digitized in a card.
    So the cash is gone. She can't be targeted in the way she 
is used to being targeted and vulnerable. The corruption, as 
Dr. Suri said, begins to be addressed, and that is serious 
problem everywhere, as we know. And she goes with that card to 
get the essential items that she needs for her family.
    So this is revolutionizing that great fear that most poor 
women have in keeping their earnings safe.
    Mr. Bera. Great. Fantastic.
    I yield back.
    Chairman Royce. We go now to Joe Wilson of South Carolina.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each you for being here today. This really has 
been fascinating to hear. The cell phone use in Kenya--how 
incredible, how positive.
    And, Dr. Suri, the House of Representatives, with the 
bipartisan leadership of Chairman Ed Royce and Ranking Member 
Eliot Engel, has a long history of promoting women's economic 
empowerment in developing countries through various pieces of 
legislation, including funding for microenterprise development 
programs focused on women entrepreneurs and last Congress' 
Global Food Security Act, which supported improved property 
rights and technical assistance for female farmers.
    In a time of limited resources, where should we be focusing 
our efforts now? Where can we get the best return on our 
investment?
    Ms. Suri. Great. Thank you, Congressman, for that question.
    I think I would echo something Ms. Iskenderian said earlier 
and something I have said already. One is measurement. 
Measurement, measurement, measurement. We are still figuring 
out what works effectively and what works best, and I think 
trying to encourage measurement.
    You know, we talked about property rights and how people 
have changed laws around property rights. Changing laws isn't 
enough because it might not actually be implemented, right? And 
so understanding whether those laws have actually trickled down 
to changing women's rights for inheritance is important. I 
don't think we have an answer to that.
    So I would say measurement is really important. Evaluation. 
Understanding what works and then investing in the things that 
work is really important.
    And this ties back to what I was saying earlier. There is 
not a lot of R&D capital-type stuff in these countries. And so 
trying to be the provider of sort of the risk investment and 
the measurement, kind of let's figure out what works and then 
invest in that, allows us to kind of use that capital very 
effectively, and then the private sector can build on sort of 
the things we are finding.
    So that is where I would see it.
    Mr. Wilson. And we would look forward to, each of you, on 
any legislation that we pass, for your advice on what we can do 
better.
    A side issue is that I have seen other organizations, like 
the International Association of Credit Unions. I was present 
in, of all places, Novosibirsk in Siberia, and it was so 
encouraging to me to see the establishment of credit unions 
where microloans were made to women to sell cosmetics door to 
door. At that time, in the late 1990s, that was utterly 
revolutionary in post-Soviet Russian Federation. So, over and 
over, so much can be done.
    And, Ms. Iskenderian, widespread lack of official 
identification in developing countries disproportionately 
affects women and girls, without which it is hard for them to 
obtain even basic services such as a bank account. This 
committee has passed legislation, the Girls Count Act, to 
promote birth registration for girls in developing countries. 
But for these women who do not have a birth certificate or 
other official identification, what are some of the new 
technologies that are helping them to gain access to important 
financial tools?
    Ms. Iskenderian. Thank you, Mr. Congressman. And thank you 
very much to the committee for having supported that 
legislation.
    The lack of a birth certificate just stops a woman's 
progress right out of the gate, literally. So as we were 
referring earlier, the biometric identification tool is very, 
very exciting.
    And we are excited that there is going to be sort of 
further south-south cooperation. India is now sort of going on 
the road with their technology. We do quite a bit of work in 
Nigeria where they have a similar technology. But where India 
has literally a palm-sized piece of technology that they can 
take out into the field and get the fingerprint. In Nigeria the 
machine is like the size of this table. So getting the 
technology right even with that great idea is absolutely 
critical.
    As I also mentioned in my remarks, something that is really 
not a technology, but something as simple as reducing Know Your 
Customer requirements for somebody to open a bank account with 
a cell phone photo, basic identification.
    In Nigeria there is a 150-page questionnaire that you have 
to fill out regardless of what you are trying to do with that 
bank account. When they instituted Know Your Customer 
requirements that were tiered to open simple savings accounts, 
you not only saw financial inclusion dramatically increase, but 
you saw the banks, the private sector banks, going in. It was 
now affordable for them to serve these customers because they 
didn't have those heavy documentary requirements.
    Mr. Wilson. And thank you for highlighting where it is 
working and also suggesting changes where certainly technology 
could be better.
    Thank you. And my time is up. And, again, thank you so much 
for all of you being here today.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Royce and Mr. Engel, for this 
hearing today. Terrific.
    Thank you to all of you. And thank you for all your work.
    I am going to assume that you all agree that the President 
needs to fill this position of Ambassador of Global Women's 
Issues as soon as possible. That is something you all agree on. 
Yes. Okay. Yes, you are all shaking your head yes.
    And Representative Torres asked me to associate herself 
with some of these remarks I am going to make and some of these 
questions.
    Thank you for your talking about trying to connect women to 
technology and to cell phones. But I think you would all agree 
that a cell phone is not a replacement for an IUD or birth 
control pill, access to healthcare. It can help, I guess, get 
you the money, right?
    A couple points that I would like you to touch on here are 
for women to be productive, they cannot just be reproductive, 
correct? Yet, we have seen this administration expanding the 
global gag rule, zeroing out funding for family planning, 
cutting off funding for the U.N. Population Fund.
    And, listen, I am not just talking about abortion, okay? 
That is controversial. Let's just talk about someone being able 
to plan their families. I would like you to touch on the impact 
of women not having full access to healthcare and being able to 
plan her own family, how that affects them economically.
    And the second thing I would like you to touch on is, we 
have heard some talk about a new World Bank fund. We are giving 
$50 million to it. I would like you to relate that to your--a 
woman's fund, yes. I would like you to relate, if you can, that 
to your discussion.
    Ambassador Verveer. Well, thank you, Congresswoman.
    I couldn't say it better in terms of the critical nature of 
how these investments in women are interrelated. Think of any 
American woman. If she doesn't have access to family planning, 
for example, if she voluntarily wants access to family planning 
to be able to conduct her life, take care of her children, give 
them the best that she can provide, and succeed in her work, 
then she is constrained. She is severely constrained.
    A poor woman's problem is that much greater. I have been in 
so many settings where women--one woman I remember vividly, 
five girls, five boys. She said to me, ``This is too many 
children. I can't take care of them. I don't know what is going 
to happen to them. We have nothing.''
    It is so significantly entwined with their futures, with 
their economic viability, with how they take care of their 
families. You can't work if you are sick. You can't work if you 
are so constrained. So that goes without saying, as far as I am 
concerned.
    In terms of the women's entrepreneurship initiative that 
Ivanka Trump has been associated with and that is part of this 
World Bank partnership, I think it is a good thing. It provides 
loan guarantees which we have seen work significantly. Ms. 
Iskenderian has talked about ameliorating risks, for example. 
Banks will not make these loans to women, small businesses, or 
medium-size businesses unless, frequently, there is a guarantee 
that they won't lose everything on that loan.
    And this is supposed to, with the Bank's work, involve 
training as well as other aspects of financial support and 
related supports. And there have been commitments from other 
governments as well.
    But the point is, that is a good initiative, but if in 
isolation we cut everything else, then what has it achieved? 
And I think that is what we have to keep in mind. We can't just 
do one thing and expect magical results. We need to understand 
the complete person in these cases, what she represents, what 
she represents for her country, what is in our vital interests, 
and make decisions accordingly.
    Ms. Frankel. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you, Ms. Frankel. Thank 
you.
    We will now turn to Mr. McCaul of Texas, the chairman of 
the Homeland Security Committee.
    Mr. McCaul. Thank you, Madam Chair.
    And thank you for being here today, all three.
    I remember several years ago reading a book called ``Inside 
the Kingdom: My Life in Saudi Arabia,'' written by Carmen Bin 
Ladin. She is a European woman who married into quite a family 
that everybody knows about today. But she talked about 1979 
particularly and how life was in the kingdom before the 
Ayatollah came into power in Iran and changed the entire region 
and then how life was after that event in 1979. And we all know 
it changed Iran, but it also fundamentally changed the Arabian 
Peninsula and Saudi Arabia, really rolling back time as it 
pertained to women.
    And, of course, the dress came back with the burqas and 
women were no longer able to drive in the kingdom and were not 
able to go outside, only at certain times, couldn't go into 
certain premises. Just highly restricted, very oppressive 
society. And it is very sad to think the direction it was going 
before 1979 and where it is today after 1979. I have had the 
opportunity to visit, as many Members have, Saudi Arabia and I 
have seen that oppression. It is very dark. I have seen that 
firsthand.
    I have seen that same oppression in Afghanistan, just a 
little different color of burqa. It is more of a beautiful blue 
color. Pakistan, as you mentioned. Yemen. And it is a change in 
their laws, but more, I think, a change in their culture.
    And I guess my question, and it is a very basic one, is how 
do we change that? How do we change that fundamental culture so 
we can lift that oppressiveness off of these women?
    Ambassador.
    Ambassador Verveer. Well, it is a very good question, 
Congressman, and I think it is a critically important question. 
Because we know that you need heat at the top. You have to 
change laws. You have to respect human rights. But you need 
heat at the bottom. And that comes from the people and their 
mindsets. And the mindsets, whether it is the Wahhabists and 
what they are perpetrating or whether it is customs saying this 
is how it is, it puts women down and really in many ways 
affects their human rights deeply.
    But there are a number of examples today where these 
norms--culture can change. But you have to work at it. And you 
do need heat at the top and you need heat at the bottom.
    And, for example, this issue of female genital mutilation, 
FGM, it is a horrific custom that many go through, many women 
go through, because it is about their future. If they don't, 
their future is inhibited in significant ways.
    But where there have been efforts, and they are documented, 
and there are successes every day. For the community to come 
together and understand what this does in terms of harming the 
health of the woman, potentially meaning maternal death in 
terms of childbirth, the consequences are huge.
    It takes village fathers, it takes imams, it takes the men, 
and the community coming together, and in place after place 
norms have changed. The norm went from FGM to the health of the 
woman. It takes time, but we have to work at it. And education 
is a critical element in all of that.
    Mr. McCaul. And I know the young Saudi crown prince who 
will be the king one day has a more progressive point of view 
with respect to this and with respect to the role of women in 
his society, and hopefully that will provide a change as well.
    Are there any other examples of a fundamental change in 
some of these countries that has made a difference in the lives 
of women? Perhaps the other two witnesses.
    Ms. Iskenderian. Thank you very much for the question, 
Congressman.
    I would just refer to some work that we are doing in 
Pakistan currently with a mobile company, mobile cell phone 
company that is offering financial services. And we went in, 
actually, as a group of Western women, feeling pretty 
unambitious or we didn't think we would be able to really 
achieve very much.
    But the company was seeing real change in youth dynamics 
and the generational dynamics, that, yes, it was difficult for 
unmarried girls to have access to cell phones, fathers really 
were not comfortable with their girls having cell phones, but 
since so many of the husbands of slightly older women had grown 
up with phones and they wanted their wives to have that access, 
we saw a real change and a real opportunity for----
    Ms. Ros-Lehtinen. Thank you so much.
    Thank you, Mr. McCaul.
    Mr. McCaul. Thank you. And sometimes I have to ban cell 
phones from my teenage daughters every now and then.
    Ms. Ros-Lehtinen. And now we are pleased to turn to 
Congresswoman Tulsi Gabbard of Hawaii.
    Ms. Gabbard. Thank you very much. Thank you for the 
important work that you are doing and for being here to really 
add to this important discussion today.
    I would like to touch on a couple of things with regard to 
the use of mobile money and M-PESA in Kenya, but how it is 
shown to be less effective in other countries. I think recently 
M-PESA was shut down in Albania, affecting nearly 250,000 
users.
    So if you can talk about what are some of the barriers that 
still exist, and how you recommend public-private partnerships 
to break through this. Why does it work in places like Kenya 
and not in places like Albania?
    Ms. Suri. Sure. Thank you for that question, Congresswoman.
    So I will say a couple of things. One is that we are now 
seeing results out of Bangladesh that find the same sort of 
financial resilience effects we were finding, which is brand 
new work out of Bangladesh. Similar results in Tanzania. And we 
are replicating in Uganda. So in a few months I will be able to 
tell you the results for Uganda.
    You know, I think one key component of mobile money and why 
it has worked in Kenya is actually the business model. They 
knew when they did this pilot that was funded by the British 
aid organization that people wanted to use this technology to 
send money across distances, right? The people who invented 
this thought it was for microloans: Oh, this will be a way for 
people to pay off loans.
    Turns out very few people have microloans in Kenya, and 
they didn't want it for that. They wanted it to send money 200 
kilometers because there was no way to do that. And so they 
rebranded the product, number one.
    And, number two, they realized, like, I can't just have my 
cash in, cash out points be in the city. If I have them only in 
the city, no one is ever going to use it. I need cash in, cash 
out points everywhere.
    So the private company invested in this network of agents 
to cash in, cash out, that when they started was already four 
or five times the size of the banking infrastructure. Today it 
is 130 times. A cash-out agent is about half a kilometer, you 
know, 5, 10 minute walk for almost every Kenyan, for the 
average Kenyan.
    So that business model of needing to be everywhere rather 
than in the cities was really, really key to this being 
successful. A lot of people who have copied it don't think 
through the business model. They think through the technology 
and say, oh, I can copy that technology, but they think, oh, I 
am a banker, I am going to start in the capital city and see 
how it goes before going anywhere. But if you do that, you are 
going to restrict the entire purpose of the technology.
    And so I think people haven't quite picked up on the 
business model is one, and how crucial that business model is 
to the success of what the technology is meant to do. And I 
think the U.K. aid pilot allowed them to realize that what we 
were thinking is wrong and we need to do something completely 
different. So that is one aspect.
    I think the other is kind of investing heavily in the 
platform that develops this technology. So talking about the 
risk investment is, I think, important here too.
    So those are the two, I think, big success cases. And there 
are countries that are not allowing it regulation-wise. You 
know, they are worried it is sort of outside the formal banking 
system and what does this imply. And so I think there have been 
some agencies trying to take the Kenya example and regulators 
from Kenya around to talk to people to try and get them to 
understand what are the right sorts of regulations you need to 
have in place to avoid money laundering and to avoid the risks 
that you traditionally think of in the banking system.
    Ms. Gabbard. And my next question was about collateral. I 
think a couple of you have mentioned that as one of the 
barriers for women, in particular, that has to be overcome with 
regards to property rights and other things. So if you could 
expand a little bit about how that barrier is being overcome.
    Ms. Iskenderian. Again, thank you very much for the 
question.
    As I mentioned in my remarks, we are very excited about 
this growing trend of movable collateral registries that we are 
seeing. Fifteen countries in Africa alone are going to have 
movable collateral registries coming online in the next 2 to 3 
years.
    In China, when they implemented a movable collateral 
registry, they allowed accounts receivable, things that we take 
for granted in our banking system, to be used as security 
against a loan, we saw a massive increase in SME lending, two-
thirds of which was to women. So being able to have access to 
other forms of security is really critical.
    We are also seeing some exciting fintech solutions where we 
are providing alternative credit scoring. The ability to track 
behavior, track payments, track interactions, transactions, 
digitally is allowing us to have algorithms that do track to 
creditworthiness.
    Ms. Suri. I will just add one bit. I think the other way to 
fix some of this is to provide loans that are for assets.
    Ms. Gabbard. Right.
    Ms. Suri. So some of the work we did in Kenya, we gave 
loans for a water tank. And some people like to have cash. And, 
like, no, no, it is for the asset, and the asset is the 
collateral. And that allows them to get a loan for an asset, 
and then you can recollateralize that asset once it is paid 
off.
    Ms. Gabbard. That is great.
    Ms. Suri. And so I think that is another way to do it, is 
to say let's do mortgage-style lending. It is not a mortgage 
because that is a big amount. But even for a $200 asset, let's 
structure it where the asset is collateral.
    Ms. Gabbard. Great.
    Ms. Suri. And that allows you to then keep that collateral 
once it is paid off and recollateralize.
    Ms. Gabbard. Thank you so much.
    Ms. Ros-Lehtinen. Thank you, Ms. Gabbard.
    We turn to Congressman Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Madam Chair.
    Thank you, ladies, for being here.
    I am fascinated to a certain extent, Dr. Suri, by your 
story in Kenya. I have two daughters. And I haven't been to 
Kenya. I have read, of course, and I can only imagine the 
culture, right, and how if the woman, even though she might 
have the money, if she has it physically, where the man might 
take it and control it, et cetera.
    So in the greater context, though, we are going to spend 
about $35 billion on foreign aid this year, right, the United 
States taxpayers are going to spend that. And I have this study 
from the GAO regarding how the different agencies are doing, 
how they spend their money, and the efficacy of the goals. It 
is pretty sad.
    For instance, DoD, of the high quality, generally met all 
applicable criteria, zero. Zero. Now in that context, it is 
DoD, right? I would contend that this should not be DoD's 
mission, right? But, apparently, people contend it is, and we 
have sent money to them and they get pretty poor results. But 
even at the State Department, they are up to a whopping 4 
percent. USAID does a little better at 26. Millennium Challenge 
Corporation, believe it or not, 44 percent.
    So I guess my question is--and one of you, I don't know if 
it was Ms. Iskenderian or Dr. Suri, said if you measure it, 
that is the key. Well, somebody is measuring it here, but I 
don't know that we are making the changes that we need to based 
on the measurements.
    So for each of you, your top three policy recommendations 
for us policymakers to make a difference so that so we change 
this zero to something meaningful. And if it means DoD doesn't 
spend any of this money and it is sent to the Millennium 
Challenge Corporation, so be it.
    But you are the alleged--you are here because of your 
expertise, right? So we are looking for some answers from you 
on how to do the job better than we are doing, which is 
apparently abysmal, if you look at the GAO study. So anybody 
care to venture?
    Ambassador Verveer. Well, I will start.
    I think, given this hearing, one of the critical things in 
government that doesn't happen is to look at the gender 
influence, if you will, integrating gender into these issues.
    A lot of these issues aren't women's issues. Take farming, 
agriculture productivity. We know that women farmers, for 
example, often are the backbone of their economies, where there 
are ag economies, and often comprise the majority of the small-
hold farmers. Yet, when we have ag policies, do we integrate 
that consideration in terms of what women need as opposed to 
male farmers? Those are often different needs for productivity. 
If we did bring those issues to the table, into our 
consideration, we would have dramatically different results.
    And with food policy and food security issues, it is 
critically important to do that. And we have seen from the 
studies that have been done that where this is a major 
consideration, you have outcomes that are different.
    Mr. Perry. Okay. That is fair.
    Ambassador Verveer. Another one is----
    Mr. Perry. I want to be quick.
    Ambassador Verveer [continuing]. Measuring and evaluation. 
And it is data. We talk about data. It is the cat's meow. It is 
something we should all be doing. But we are not willing to pay 
for data collection. And I think that is a very big issue in a 
lot of the grants that are made and in decisions.
    Mr. Perry. Okay. What else you got?
    Ambassador Verveer. Another one is looking at the evidence-
based case, what is working and what is not working, and quit 
repeating the mistakes, and scale what is scalable.
    Mr. Perry. So just in that point, we are going to need some 
help from outside organizations because, for instance, I have 
to tell you that when you go to cut some of the money going to 
DoD for these programs, can you imagine the panoply of names 
that we are all going to be called around here if we say one 
cent less for X? That is where we need your help, to point out, 
look, this is not effective, it is nothing personal, but let's 
spend the money here. We will do the same mission, but somebody 
else does a better job.
    Yes, ma'am.
    Ms. Suri. So I would say three things. R&D, we do not do 
enough about learning what works, and testing and 
experimenting. You know, the Poverty Action Lab that I am 
affiliated with at MIT is doing this with policy. Let's go 
experiment and see what works. Think of the title of this 
hearing, microfinance. We thought this was the silver bullet 
for women. Turns out, it doesn't do that at all.
    Mr. Perry. Right.
    Ms. Suri. We have now seven studies.
    So I think really doing what R&D would do, which doesn't 
exist in developing countries, not just measure, but evaluate, 
test, experiment.
    I think working with the private sector. The private sector 
in developing countries is showing an ability to scale in a way 
that others don't have. Mobile money is scaling across the 
developing world faster than most things. And so seeding kind 
of innovation in the private sector, I think, can get you lots 
of gains.
    Mr. Perry. I am sorry. My time has expired. I am happy to 
talk to you afterward. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. Thank you.
    Now we are pleased to turn to Robin Kelly of Illinois.
    Ms. Kelly. Thank you, Madam Chair. And I want to thank the 
chairman and ranking member for holding this hearing on 
empowering women in the developing world.
    This is a multifaceted issue that is particularly important 
to me. That is why Congressman Chabot and I introduced H.R. 
2408, the Protecting Girls' Access to Education in Vulnerable 
Settings Act. Giving women and girls access to quality 
education not only increases their economic potential, but it 
is directly related to conflict prevention and reducing gender 
gaps.
    Already, one in five girls in developing countries who 
enroll in primary schools never finish. And I am concerned this 
Trump budget, unfortunately, will drive more women and girls 
out of school as a result of very concerning cuts to foreign 
aid.
    USAID found that when 10 percent more girls go to school, a 
country's GDP increases on average by 3 percent. Education 
provides a multiplier effect. When women and girls are more 
educated, they have greater decisionmaking power in their 
households, are less likely to be recruited by extremists, and 
have healthier and better educated children.
    Before I ask my question, I will say, someone asked who 
were the good guys and the bad guys. And as the past chief of 
staff to the Illinois State treasurer and the current co-chair 
on the Caucus of Black Women and Girls, I do feel that the 
United States of America needs to look at itself too. It is not 
just in developing countries that there is work to do. We have 
a lot of work to do here.
    But can you suggest the best leverage, how can the U.S. 
best leverage foreign aid money into programs that help women 
become more financially secure so that people do feel 
comfortable with the money that we are spending and we are 
giving to these countries and programs?
    Ms. Iskenderian. I would reiterate my fellow panelists' 
focus on data, on monitoring and evaluation, and let's stop 
making the same bad investments and really start scaling the 
ones that do work.
    The other thing I would really add, though, is, again, that 
focus on the private sector. One of the things the United 
States does do very well domestically is on procurement and 
requiring a diversity in procurement policies. We should be 
doing that more with both our own private sector that is 
working in developing countries and that are getting government 
funding to do that, as well as encouraging the private sector 
in those countries itself to diversify their procurement. 
Having those women-owned businesses that we have been talking 
about in the supply chains of those companies can make an 
enormous difference and they have tremendous difficulty 
accessing finance.
    And then I am just a very big fan of OPIC. And it is a 
program that gives back to the U.S. Treasury rather than only 
taking. And there is no gender mandate that is explicitly in 
the OPIC program. And I think there could be, again, a lot of 
private sector and a great deal of leverage there.
    Ms. Kelly. Anybody else?
    Ms. Suri. Yes. Ms. Iskenderian said it well. I would 
reiterate just evaluating and really truly understanding what 
works is very critical. And investing in that knowledge base 
will help everybody across the developing world. And so I think 
investing in the knowledge base of what works and what doesn't 
work, which is so underinvested in in developing countries, is 
essential.
    And Ms. Iskenderian mentioned OPIC. I will say thinking a 
little more innovatively about how aid organizations can invest 
and work with the private sector is key.
    If you look at Norway, the government has a--it is hard to 
say this--the government has a private equity fund, Norfund, 
right, completely private equity, Silicon Valley style, does 
investments with returns. And they are playing around with what 
their role should be and how they should structure that role. 
And I think it is interesting to see how that will evolve over 
time and whether that is an interesting model. But I think 
thinking of innovative models of how to structure our 
interactions is important.
    Ambassador Verveer. Well, just very quickly, we are all 
singing from the same hymnal. But I think in terms of the 
private sector, there is some really impactful, innovative work 
going on using supply chains and value chains, and government 
participating in some of these collaborations in ways that we 
have talked about and haven't talked about, which I think is 
critically important.
    And then I would say incentives, incentives to change 
behavior. You talked, Congresswoman, about education. What does 
it take to keep that girl in school? How do you affect the 
families that often want to push them into a child marriage, 
say? So incentive policies that help us do what we are 
intending to do.
    Ms. Kelly. If I would say to you, can you think of a 
program right now that you would tell us we should not repeat, 
do you have programs in your mind? You don't have to tell me. I 
just want to know.
    [Nonverbal response.]
    Ms. Kelly. Yes, you do. Okay.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Kelly.
    And we turn to Mr. Donovan of New York.
    Mr. Donovan. Thank you, Madam Chairwoman.
    You have identified, outlined, and vividly described what 
the issues are. I appreciate that for someone who is trying to 
understand it.
    I have one question. It is actually in two parts. And I 
open it up to the panel.
    A lot of the things that you have identified as the 
problems are caused by countries in which we don't create their 
laws and we don't support their culture and how they treat 
women.
    What influence could the United States use, since we can't 
change their laws--and I think some of my colleagues hit on 
this peripherally--what leverage could we use to encourage 
countries to change those laws besides appropriations? Our 
Appropriations Committee will do that.
    But what kind of policies, what kind of things could we do 
to influence some countries to change either their laws or 
their cultures on how they treat women?
    And the other thing, the other part of my question would 
be, what laws could we propose? What could this committee do in 
order to advance--I won't even say advance--get up to speed of 
how the cultures treat the female populations of their 
countries?
    Part of my great interest in this is I have a 2-year-old 
daughter. So women's interests have really--they have always 
been an interest of mine. And I don't want to say, Madam 
Chairman, because I am interested in women. But it has always 
been a concern of mine, the equality of women's rights in our 
country, but now that I am on Foreign Affairs and I am seeing 
the disparity in how women are treated in other parts of our 
world.
    I would just like your expertise in how, again, our country 
can influence or encourage or use our leverage to advance 
women's rights elsewhere. And then what can this committee 
actually do? And I just leave it in any order to the panel as a 
whole.
    Ambassador Verveer. Well, I will kick it off by saying one 
thing that has always impressed me is not the lecture from the 
West so much that makes the difference, but our ability to help 
raise up the voices within the country who want this kind of 
change--women who want family law reform who cannot only 
succeed at doing it when they come together, but actually help 
their sisters in other countries who are in the same kinds of 
cultures and wondering how do we get there.
    Mr. Donovan. As you said before, pressure from the bottom?
    Ambassador Verveer. Well, bringing women together so that 
the best practices in one place can be understood and applied 
in ways that are appropriate to the other place, validating the 
efforts and enabling others to benefit from those best 
practices.
    Ms. Suri. Thank you for that question. It is a hard 
question.
    I guess I would just say that it is not just laws, because 
in a lot of these places you can set all the laws you want but 
whether they are actually adhered to is a different matter.
    And so I think, as Ambassador Verveer said, like thinking 
how we actually get the perception of women changed on the 
ground is kind of key, not just the laws. So as women start to 
participate more and more, it seems that the attitudes start to 
change.
    So the example I gave was from India where a regulation 
required women to be part of local government, very low-level 
local government, and it didn't change expenditures, but it did 
change people's perceptions that women were good 
decisionmakers. The men were more likely to think that.
    So I think kind of thinking through not just what laws, but 
how do you actually change things on the ground, that when the 
laws come in they actually will have impact, is probably 
important as well.
    Mr. Donovan. The Indian Government changed that law. We 
can't control what laws the Indian Government passes. So I am 
trying to figure out how could we influence.
    Ambassador, I think your comments are pertinent to that. 
What leverage could we use?
    And then, again, if there is something that this committee 
could put forth.
    Ms. Iskenderian. I would very much echo Ambassador 
Verveer's use of best practice. The best learning is peer 
learning. And it is often very difficult for people to hear an 
American voice suggesting something, and hearing another woman, 
another company, another bank from a developing country talk 
about their experience.
    We have done some amazing work in Jordan in microinsurance 
that has benefitted women's maternal health tremendously over 
the last 3 years. The insurance company we work with just came 
back from Egypt where they were spreading the gospel. Private 
company. It wasn't a government program at all. Whereas in 
Egypt, the government had requested this private company to 
come and explain how they had gotten this product to work so 
successfully. And that is going to be so much more powerful 
than anything that we could say.
    You know, I would also just say we have a very loud or 
could have a very loud voice in international fora that I don't 
think we always use. In the subject of financial inclusion at 
the G20, we are not advocating for any of these issues as a 
government. We are very focused on issues about antiterrorism 
financing, money laundering, all of which is very, very 
important. But we don't even add this as an issue that we are 
standing with those other 19 countries and advocating for.
    Mr. Donovan. There might have been an opportunity missed 
there, yes. Thank you very much.
    I yield whatever little time I don't have left back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Donovan.
    And we now go to Congressman Chris Smith of New Jersey, 
chairman of the Subcommittee on Africa, Global Health, Global 
Human Rights, and International Organizations.
    Mr. Smith. Thank you very much, Madam Chair. And I do want 
to thank Ed Royce and Eliot Engel for calling this important 
hearing.
    Ambassador, it is so great to see you again. And welcome to 
our other very distinguished witnesses.
    Just a couple of points because so much has already been 
said. And I got here very late to ask my questions. But I would 
like to comment on the shift. And maybe you might want to 
comment on it as well.
    I have written two laws on microcredit financing, targeting 
the poorest of the poor, reauthorizing the funding. But that 
has changed dramatically and radically, as you know better than 
anyone else. Where we used to rely on donor support, obviously, 
and you have all testified to this, USAID says that more than 
half of the financing provided by microfinancing institutions 
now comes from deposits, as you know so well, with much of the 
remaining from private capital.
    And, again, I think my good friend from Staten Island made 
a very good point. What can we do to accelerate that or to keep 
that trajectory so that more people are reached?
    CARE points out that women still lag behind men in access 
to financial services by 7 percent worldwide, 9 percent in 
developing countries. So that disparity and gap must be closed, 
I would note.
    And your points about cell phones were excellent. You all 
made very good points about that. When we were going and doing 
our part to try to resource the Ebola crisis, one of the 
biggest takeaways was how cell phones were the bridge between 
best practices, including what do you do if somebody passes? 
Don't touch the body. That was all being sent out via cell 
phones. Radio was there. Cell phones were the dominant medium, 
if you will, that were used there.
    Financial inclusion, obviously that is extremely important 
as a driver. You might want to speak to that.
    And finally, today, in about 2 hours, the Frederick 
Douglass Trafficking Victims Prevention and Protection 
Reauthorization Act, a bill that I have introduced, joined by 
my good friend and colleague Karen Bass, Ileana Ros-Lehtinen, 
Chairman Royce, Ms. Frankel, and others, will be on the floor.
    And we have new language in this. Besides reauthorizing the 
TVPA of 2000, 2005, the International Megan's Law, and the 
William Wilberforce Act, to the tune of $534 million over 4 
years, it will do a number these best practices of training 
procurement officers, so that they know what to look for in 
trafficking.
    And you might speak in a parallel way, because I think 
poverty is still one of the major drivers behind trafficking, 
how we might also get procurement officers and others, because 
we buy an awful lot in this country, to be more aware of how 
they could be helpful in this important and noble battle as 
well.
    Ambassador.
    Ambassador Verveer. Well, thank you, Congressman Smith. It 
is always good to see you. And thank you for your leadership on 
so many issues we mutually care about, whether it is son 
preference or human trafficking.
    On the trafficking piece, I think the supply chain is a 
really important issue, and it has been manifested in other 
ways. But the work that is being done to understand where 
slavery is injecting itself and what end products have utilized 
and tapped that in terms of undermining people's human rights I 
think is a very important piece.
    And as you have so well stated, trafficking would not be 
the multibillion-dollar criminal industry it is today if people 
had economic viability. Traffickers prey on people who are 
desperate to come out of the straits that they are in, and they 
are coerced and conned, and we know what happens.
    So I think this is a very important piece. You have been on 
this issue a long time. This is another critical element as far 
as I understand.
    And, quickly, on the cell phones, we have talked a lot 
about the financial transaction side of it. But your point 
about Ebola is one point I don't want us to miss, which is the 
critical information, health information, inventory information 
on product lines, how to move them, information for women to 
protect themselves from violence, a lot of that is happening 
through the cell phone today. That is why it has become such a 
critical tool, particularly for poor women.
    Mr. Smith. Thank you.
    Ms. Suri. I will just add on the cell phones. I think 
Ambassador Verveer is absolutely right. There is lots of 
evidence that people are able to manage also their health lives 
better with cell phones. You can remind them to take medication 
that has to be taken continuously, and they do, and they 
respond to it.
    In all sorts of ways cell phones are such a big part of 
people's lives in the developing world that they really weren't 
here at the same sort of level of development in any way.
    And I think they are critical not just to that, but also we 
did a bunch of work on the Ebola crisis when it was happening 
in Sierra Leone and we wanted to track the economic effects it 
was having and whether women were pulling away from health 
services because they were worried about catching Ebola. And we 
did all of that data collection by cell phones, because we had 
been working in Sierra Leone for several years, we had people's 
phone numbers. And we ended up being able to trace out, 
literally every month we were running a quick survey of a few 
thousand people in Sierra Leone to track what was happening and 
how they were responding.
    And so I think not just in terms of good for people, but in 
terms of also being able to understand crisis situations, they 
have been very useful.
    Mr. Smith. Thank you so very much.
    Ms. Ros-Lehtinen. Thank you so much.
    And now we turn to Ambassador Wagner of Missouri.
    Mrs. Wagner. Thank you, Madam Chairman, for hosting such an 
excellent hearing.
    As a woman on both the Financial Services and the Foreign 
Affairs Committees, I am highly concerned about women's 
economic empowerment. And I very much appreciate your 
testimonies. Far too many of the world's women live in the cash 
economy without access to financial markets and services.
    Dr. Suri, I had a chance to read some of your work on 
financial services innovations that improve financial 
inclusion. I was particularly interested in your National 
Bureau of Economic Research paper published last fall which 
cited the importance of equipping commercial savings products 
with features that guide clients toward better financial 
planning, from text messages that remind people to save to 
automatic withdrawal of savings from paychecks.
    Tell me, how can the private sector, Dr. Suri, in 
developing countries improve how the poor are saving?
    Ms. Suri. Thank you for that question, Congresswoman. It is 
a great question.
    I think the private sector is starting to innovate a little 
around financial tools, but they are worried about risk. The 
financial systems are small, not that concrete, not that 
stable. And so I think they are worried about risk. So they do 
experiment a little, like with savings accounts, as you saw 
from our work.
    But I think encouraging them to provide a variety of 
products. I think what we have learned from microfinance is one 
hat doesn't fit all. I don't walk into the bank and there is 
one savings product and one credit product. There has to be a 
variety that meets different types of people's needs. And so I 
think trying to encourage the private sector to innovate around 
the types of products is one.
    And then we have talked about this bit before, is kind of 
helping them deal with that risk a little. If they are really 
worried about risk, can we derisk some of the things they are 
doing so that they are less worried and can invest and innovate 
more?
    And then, I think also doing the research piece around what 
works and what doesn't work. You know, that piece is really 
about, how do we think about what works in the financial tool 
set for people in developing countries? And I think we need 
that knowledge to be able to then go to the private sector and 
say, look, this didn't work, don't do it, the same way we were 
talking about earlier here. We can bring knowledge even to the 
private sector to show them what is working and what is not 
working.
    Mrs. Wagner. Thank you. I appreciate that.
    Ms. Iskenderian, I appreciate your leadership at Women's 
World Banking. I had the opportunity to look at your 
partnership to create Jordan's first health microinsurance 
product to directly address hospitalization costs. I learned 
that many existing health microinsurance products in Jordan 
exclude pregnancy and prenatal care.
    Do you find that this is the case in many parts of the 
world? And how can policymakers encourage the launch of 
microinsurance products that better support pregnancy care?
    Ms. Iskenderian. Thank you, Ambassador.
    That was not just a factor we see in Jordan, I am afraid, 
but in many countries. Insurance companies don't want to insure 
a risk that they know is going to actually happen. When a woman 
gets pregnant, we know what the outcome of that is going to be. 
So we, unfortunately, have found in many cases that that is an 
exclusion.
    Part of the reason why this product has been so successful 
in Jordan, and we have now replicated it in six other 
countries, is that we do not exclude maternal care. We found 
that that is the one time in a woman's life that she will 
prioritize her own health over her children's or her spouse's 
or other family member's. And so it is both a good sales 
technique in the way that you can convince a woman to take on 
that insurance if she sees it meeting a need that she 
expresses.
    It was interesting, in Jordan, we even saw women who were 
sort of outside child-bearing age find that that organization, 
the organization offering the insurance, if they had identified 
that need and recognized that as something that should be 
insured----
    Mrs. Wagner. So do you see those markets opening up at all, 
Ms. Iskenderian, I mean, in terms of maternity and prenatal 
care, and more across the world you are seeing it happen?
    Ms. Iskenderian. We are. Microinsurance is just still a 
drop in the bucket in terms of what is needed. Again, 
technology is really very helpful because we are bringing the 
cost of those very small policies down. But I think there is a 
recognition and there has been quite a bit of research, women 
do buy more insurance around the world than men. If you are 
going to appeal to women you have to meet their needs, and 
maternal healthcare is right at the top of that.
    Mrs. Wagner. I think it is. And whatever we can do as a 
country and a society to make sure that we are encouraging 
policymakers to make that more readily available across the 
world I think is very, very important.
    I believe, Madam Chairman, that I have run out of time.
    I have a wonderful question for you, Ambassador Verveer, 
but I will have to submit it in writing.
    So I yield back. Oh, Mr. Chairman. I am sorry.
    Chairman Royce [presiding]. Thank you, Congresswoman.
    Well, let me thank former Ambassador Wagner, but also thank 
every member here of the panel for taking time out of your very 
busy schedules to come here today to testify on this subject, 
because I think this is going to be very helpful to the 
committee as we continue our work to try to accelerate economic 
growth in these societies and promote global health and 
stability by focusing on this issue, by focusing on ensuring 
that the women who serve as the backbone of stable societies 
are not left behind and have the tools necessary to further 
progress in this area.
    So thank you all very much for your work in this area and 
your testimony.
    Ambassador Verveer. Thank you.
    Chairman Royce. And we stand adjourned.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
